                         Independent Auditor’s Report on
                       Special-Purpose Financial Statements


Inspector General
United States Nuclear Regulatory Commission

Chairman
United States Nuclear Regulatory Commission


We have audited the accompanying reclassified balance sheet as of September 30,
2008 and the related reclassified statements of net cost and changes in net position for
the year then ended (hereinafter referred to as the special-purpose financial statements)
contained in the special-purpose closing package of the United States Nuclear
Regulatory Commission (NRC). These special-purpose financial statements are the
responsibility of NRC’s management. Our responsibility is to express an opinion on
these special-purpose financial statements based on our audit. The special purpose
financial statements of NRC as of and for the year ended September 30, 2007 were
audited by other auditors, whose report, dated November 7, 2007, expressed an
unqualified opinion on those statements.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United
States; and, Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended. Those standards require
that we plan and perform the audit to obtain reasonable assurance about whether the
special-purpose financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures
in the special-purpose financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as
evaluating the overall special-purpose financial statement presentation. We believe that
our audit provides a reasonable basis for our opinion.

The accompanying special-purpose financial statements and accompanying notes
contained in the special-purpose closing package have been prepared for the purpose
of complying with the requirements of the U.S. Department of the Treasury’s Financial
Manual (TFM), Volume I, Part 2, Chapter 4700, solely for the purpose of providing
financial information to the U.S. Department of the Treasury and the U.S. Government
Accountability Office to use in preparing and auditing the Financial Report of the U.S.
Government, and are not intended to be a complete presentation of the NRC’s financial
statements.
                           Independent Auditor’s Report
                on Special Purpose Financial Statements, Continued


In our opinion, the special-purpose financial statements and accompanying notes
referred to above present fairly, in all material respects, the financial position of the NRC
as of September 30, 2008, and its net costs and changes in net position for the year
then ended in conformity with accounting principles generally accepted in the United
States of America and the presentation pursuant to the requirements of the TFM,
Chapter 4700.

The information included in the Other Data is presented for the purpose of additional
analysis and is not a required part of the special-purpose financial statements, but is
supplementary information required by the TFM, Chapter 4700. We have applied
certain limited procedures, which consisted principally of inquiries of management
regarding the methodology and presentation of this information. We also reviewed such
information for consistency with the related information presented in the NRC’s financial
statements. However, we did not audit this information, and, accordingly, we express
no opinion on it.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, as
amended, we have also issued a combined report dated November 7, 2008, which
presents our opinion on NRC’s financial statements, our opinion on NRC’s internal
control over financial reporting, and our consideration of NRC’s compliance with certain
provisions of laws and regulations. That report is an integral part of an audit of general-
purpose financial statement reporting performed in accordance with Government
Auditing Standards and OMB Bulletin No. 07-04, as amended, and should be read in
conjunction with this report in considering the results of our audit.

In planning and performing our audit of the special-purpose financial statements, we
also considered the NRC’s internal control over the financial reporting process for the
special-purpose financial statements and compliance with the TFM, Chapter 4700.
Management is responsible for establishing and maintaining internal control over
financial reporting, including Other Data, and for complying with laws and regulations,
including compliance with the TFM, Chapter 4700 requirements.

Our consideration of internal control over the financial reporting process for the special-
purpose financial statements would not necessarily disclose all matters in the internal
control over the financial reporting process that might be significant deficiencies. Under
standards issued by the American Institute of Certified Public Accountants, significant
deficiencies are deficiencies in internal control, or combination of deficiencies, that
adversely affects the NRC’s ability to initiate, authorize, record, process, or report
financial data reliably and in accordance with accounting principles generally accepted
in the United States of America such that there is more than a remote likelihood that a
misstatement of the special-purpose financial statements being audited that is more
than inconsequential will not be prevented or detected. Material weaknesses are
significant deficiencies, or a combination of significant deficiencies, that result in more
                          Independent Auditor’s Report
               on Special Purpose Financial Statements, Continued


than a remote likelihood that material misstatements in relation to the
special-purpose financial statements being audited will not be prevented or detected.

We found no material weaknesses in the internal control over the NRC’s financial
reporting process for the special-purpose financial statements, and our tests of
compliance with the TFM, Chapter 4700 requirements disclosed no instances of
noncompliance that are required to be reported under Government Auditing Standards
and OMB Bulletin No. 07-04, as amended. However, providing opinions on internal
control over the financial reporting process for the special-purpose financial statements
or on compliance with the TFM, Chapter 4700 requirements were not objectives of our
audit of the special-purpose financial statements and, accordingly, we do not express
such opinions.

This report is intended solely for the information and use of the NRC’s Office of
Inspector General, NRC management, the U.S. Department of the Treasury, the Office
of Management and Budget, and the U.S. Government Accountability Office in
connection with the preparation and audit of the Financial Report of the United States
Government and is not intended to be and should not be used by anyone other than
these specified parties.




Arlington, Virginia
November 16, 2008
